IN THE SUPREME COURT OF THE UNITED STATES

No. 19A____
LEGAL OUTSOURCE PA, PERIWINKLE PARTNERS, LLC, CHARLES
PAUL-THOMAS PHOENIX, AND LISA M. PHOENIX, APPLICANTS
v.
REGIONS BANK

CERTIFICATE OF SERVICE

I, Donald Burke, counsel for applicants and a member of the
Bar of this Court, certify that, on November 14, 2019, one copy
of the Application for an Extension of Time Within Which to File
a Petition for a Writ of Certiorari in the above-captioned matter
was

sent,

by

third-party

commercial

carrier

for

delivery

overnight and by electronic mail, to the following counsel:
John A. Anthony, Esq.
Anthony & Partners, LLC
201 N. Franklin St.
Suite 2800
Tampa, FL 33602
janthony@anthonyandpartners.com
I further certify that all parties required to be served
have been served.

Donald Burke

